HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services at Cape Cod Hospital for Fiscal Year Ending September 30, 1998,"(A-01-00-00554)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services at Cape Cod Hospital for Fiscal Year Ending September 30, 1998," (A-01-00-00554)
February 16, 2001
Complete
Text of Report is available in PDF format (911 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether outpatient pharmacy services at Cape Cod Hospital (the Hospital)
were billed for and reimbursed in accordance with Medicare regulations.  Based on the statistical sample, we estimated
that CCH had overstated its FY 1998 Medicare outpatient pharmacy charges by at least $188,989.  The essence of the
overpayments involved charges for Epoetin (EPO) treatments that were determined in the medical claims review by the Fiscal
Intermediary (FI) to have been incorrectly reimbursed. Furthermore, we determined that the Hospital billed Medicare for
medications not properly supported by medical records, for self-administered drugs not reimbursable by Medicare, and for
clerical errors.  We noted that the Hospital did not have or follow existing procedures for the proper billing of
outpatient pharmacy services.